5
%
■

-.

\
\
' \
\

\
\

u
u

It

TABLE OF CONTENTS
TABLE OF CITED AUTHORITIES

iii

INDEX TO APPENDICES
APPENDIX A

United States Court of Appeals for the

A 1

Seventh Circuit Certificate of Appealability Denial July 1, 2020 19-2856
APPENDIX B

United States District Court, Northern
District, Eastern Division Habeas Denial

B 1

and In Forma Pauperis Denial August 27,
2019 19 C 2735
APPENDIX C

United States Court of Appeals for the
Seventh Circuit
Hearing Denied

APPENDIX D

C 1

Rehearing Denied/En Banc
September 2, 2020 19-2856

Appellate Court of Illinois, Second Dis­

D 1

trict Postconviction Successive Petitions,
D1
Motion for Leave to File Opinions June 5,

D 2

*■ ■

d

a-

2018 (2-16-0382) and May 22, 2018
(2-15-0654)
APPENDIX E

Supreme Court of Illinois Postconviction

E 1

and Successive Petition for Leave to Appeal

E 2

September 26, 2018 (123779) and September
26, 2018 (123878)
Circuit Court of the 18th Judicial Circuit
E3
Memorandum Opinion May 5, 2014 (C0001083)
and May 11, 2016 (C0001417)
APPENDIX A - E

i

E 3
E 4

Ttmtefr JSktes Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted June 18, 2020
Decided July 1, 2020
Before
MICHAEL B. BRENNAN, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge

No. 19-2856
CHRISTOPHER A. CARTER,
Petitioner-Appellant,

v.
FRANK LAWRENCE,
Respondent-Appellee.

Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.
No. 19 C 2735
Virginia M. Kendall,

Judge.
ORDER

Christopher Carter has filed a notice of appeal from the denial of his petition
under 28 U.S.C. § 2254, which we construe as an application for a certificate of
appealability. This court has reviewed the final order of the district court and the record
on appeal. We find no substantial showing of the denial of a constitutional right. See
28 U.S.C. § 2253(c)(2).
Accordingly, the request for a certificate of appealability is DENIED. Carter's
motions to proceed in forma pauperis and for appointment of counsel are DENIED.

4.

Case: l:19-cv-02735 Document #: 10 Filed: 08/27/19 Page 1 of 3 PagelD #:1588

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION

CHRISTOPHER A. CARTER,
M32025,
Petitioner,
v.
FRANK LAWRENCE,
Acting Warden,
Menard Correctional Center,

)
)
)
) .

)

No. 19 C 2735

)
)
)

Judge Virginia M. Kendall '

)
)
)

Respondent.

)

ORDER
In 2012, an Illinois state jury convicted Christopher Carter of six counts of
predatory criminal sexual assault of a child, namely, his daughter and another girl
he believed to be his daughter (until post-arrest DNA testing revealed she was not).
See People v. Carter, 2014IL App (2d) 121053-U,
2, 4, 38. The trial court sentenced
Carter to life in prison. See id. f 38.
On direct appeal, Carter raised a limiting instruction issue about “other
crimes” evidence in addition to challenging a comment the prosecutor made during
closing argument. See id. U 40. The appellate court held that Carter forfeited these
claims, and further, that it would not excuse his forfeitures because the trial court
did not plainly err. See id.
45, 54—55, 60. The state supreme court denied Carter’s
ensuing petition for leave to appeal (PLA). See People v. Carter, 23 N.E.3d 1202 (Ill.
2015) (denying Carter’s PLA on direct appeal).
In 2015, Carter petitioned the trial court pro se under 725 ILCS 5/122-1 alleg­
ing 55 claims, including ineffective assistance of counsel and due process violations.
See People v. Carter, 2018 IL App (2d) 150654-U, ]ft 1-2, 8, appeal denied, 108 N.E.3d
879 (Ill. 2018). The trial court dismissed the petition and the appellate court affirmed
that disposition, reasoning that Carter again forfeited his claims because his brief
failed to comply with a state procedural rule. See id. Tff 1-2, 14. The appellate court
alternatively ruled that the claims it could discern were meritless. See id. TfTf 15, 21.
The Illinois Supreme Court denied the PLA that followed in 2018. See People v.
Carter, 108 N.E.3d 879 (Ill. 2018) (denying Carter’s PLA on collateral attack).
Page 1 of 3

AppW/*x &

6

Case: l:19-Cv-02735 Document#: 10 Filed: 08/27/19 Page 2 of 3 PagelD #:1588

In 2016, Carter sought leave to file a second and successive postconviction pe­
tition that the trial court denied. See People u. Carter, 2018 IL App (2d) 160382-U,
f 2, appeal denied, 108 N.E.3d 860 (Ill. 2018). On appeal, the court affirmed the trial
judge’s decision explaining that claim preclusion barred Carter’s claim and that he
failed to demonstrate cause and prejudice or actual innocence to overcome that bar.
See id.
17, 20. The state supreme court denied Carter’s PLA in 2018. See People
u. Carter, 108 N.E.3d 860 (Ill. 2018) (denying Carter’s PLA in his second and succes­
sive collateral attack).
In April 2019, Carter petitioned this Court pro se under 28 U.S.C. § 2254 as­
serting ineffective assistance of counsel, due process, and evidentiary claims. (Dkt.
I.)1 But a federal court may not review habeas claims that the petitioner procedurally
defaulted in the state courts—“that is, claims that the state court denied based on an
adequate and independent state procedural rule.” Crutchfield v. Dennison, 910 F.3d
968, 972 (7th Cir. 2018), cert, denied, 139 S. Ct. 1587 (2019) (quoting Davila u. Davis,
137 S. Ct. 2058, 2064 (2017) (internal punctuation omitted)).
A federal court may review a defaulted claim, however, “if the prisoner estab­
lishes cause to excuse his failure to comply with the state procedural rule and actual
prejudice resulting from the alleged constitutional violation... A federal habeas court
may also excuse a procedural default if the prisoner makes a convincing showing of
actual innocence.” Id. at 973 & n.2 (internal citations and quotations omitted).
Here, the Illinois Appellate Court held that Carter forfeited his claims on direct
appeal, and it could not excuse his forfeitures because the trial court did not plainly
err. See People v. Carter, 2014 IL App (2d) 121053-U, 1ft 45, 54-55, 60. That is an
adequate and intendent ruling that bars federal habeas review of those claims. See
Richardson v. Lemke, 745 F.3d 258, 269, 271-72 (7th Cir. 2014) (finding a petitioner
procedurally defaulted a claim that he forfeited in the Illinois courts) (citing Kaczmarek v. Rednour, 627 F.3d 586, 591 (7th Cir. 2010); see also Carter v. Douma, 796 F.3d
726, 733 (7th Cir. 2015); Gray v. Hardy, 598 F.3d 324, 329 (7th Cir. 2010).
Similarly, Carter forfeited his claims on collateral attack because his postcon­
viction appellate brief failed to comply with a state procedural rule requiring an ap­
pellant to clearly articulate her claims and support them with citations to the record
and relevant legal authority. This conclusion, too, represents an adequate and inde­
pendent decision that is not cognizable on federal habeas review. See Szabo u. Walls,
313 F.3d 392, 395 (7th Cir. 2002); see, e.g., Spates v. Lashbrook, No. 17 C 50010, 2017
WL 6623763, at *5 (N.D. Ill. Dec. 27, 2017); Calabrese v. Harrington, No. 14 C 0790,

1 Although the Acting Warden responded to Carter’s petition, Carter failed to reply to the
Acting Warden’s response. (Dkt. 6 (ordering briefing).)
Page 2 of 3

<5

Case: l:19-cv-02735 Document #: 10 Filed: 08/27/19 Page 3 of 3 PagelD #:1588

2016 WL 3088133, at *10 (N.D. Ill. June 1, 2016); Olawale v. Hodge, No. 13 C 8535,
2016 WL 278871, at *7 (N.D. Ill. Jan. 22, 2016).2
There is no excuse for Carter’s failures to abide by state procedural law. Carter
did not even try to establish cause for them, let alone prejudice resulting from the
alleged violations. Carter does not vie for actual innocence either. Because he failed
to argue for either ground to excuse the application of the Acting Warden’s affirma­
tive defense, the Court cannot consider his claims. See Crockett v. Hulick, 542 F.3d
1183, 1193 (7th Cir. 2008).3
Accordingly, the Court denies Carter’s petition for a writ of habeas corpus (Dkt.
1). The Court also declines to issue a certificate of appealability because Carter did
not make “a substantial showing of the denial of a constitutional right,” or in other
words, that reasonable jurists would not find this procedural default decision debat­
able. 28 U.S.C. § 2253(c)(2); see Slack u. McDaniel, 529 U.S. 473, 484 (2000).

* I

&

j^inia M. Kendall
mtefl States District Judge
Date: August 27, 2019

2 Carter could not preserve any claim for federal habeas review in his second and successive
postconviction petition because the trial court denied him leave to file it. Cf. Martinez v.
Jones, 556 F.3d 637, 639 (7th Cir. 2009) (clarifying that a denied request to file a successive
petition in Illinois state court does not toll the statute of limitations for federal habeas peti­
tions).
3 To the extent Carter alleges any new claims, he also defaulted them because he did not
fairly present them to the Illinois courts in one complete round of judicial review. See Crutch­
field, 910 F.3d at 972-73 (first citing Davila, 137 S. Ct. at 2064; then quoting 28 U.S.C.
§ 2254(b)(1)(A)).
Page 3 of 3

r\

Mnitefr %
For the Seventh Circuit
Chicago, Illinois 60604
September 2, 2020
Before.
MICHAEL B. BRENNAN, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge

No. 19-2856
CHRISTOPHER A. CARTER,
Petitioner-Appellant,

Appeal from the United States District
Court for the Northern District of
Illinois, Eastern Division.

v.
No. 19 C 2735
FRANK LAWRENCE,
Respondent-Appellee.

Virginia M. Kendall,

Judge.

ORDER
On consideration of the petition for rehearing and for rehearing en banc filed by
Petitioner-Appellant on August 17,2020, no judge in active service has requested a vote on
the petition for rehearing en banc, and the judges on the original panel have voted to deny
rehearing.
Accordingly, the petition for rehearing is DENIED.

;

AppendTx d

Additional material
from this filing is
available in the
Clerk's Office.

